<html>
<title> - HOW E-VERIFY WORKS AND HOW IT BENEFITS AMERICAN EMPLOYERS AND WORKERS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 HOW E-VERIFY WORKS AND HOW IT BENEFITS AMERICAN EMPLOYERS AND WORKERS 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2013

                               __________

                            Serial No. 113-4

                               __________

         Printed for the use of the Committee on the Judiciary

      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

79-586 PDF                       WASHINGTON : 2013 




                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
KEITH ROTHFUS, Pennsylvania

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                     TED POE, Texas, Vice-Chairman

LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
MARK AMODEI, Nevada                  JOE GARCIA, Florida
RAUL LABRADOR, Idaho                 PEDRO R. PIERLUISI, Puerto Rico
GEORGE HOLDING, North Carolina

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel



                            C O N T E N T S

                              ----------                              

                           FEBRUARY 27, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................     7
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     8

                               WITNESSES

Soraya Correa, Associate Director, Enterprises Services 
  Directorate, U.S. Citizenship and Immigration Services
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
Christopher P. Gamvroulas, President, Ivory Development, on 
  behalf of the National Association of Home Builders
  Oral Testimony.................................................    17
  Prepared Statement.............................................    20
Randel K. Johnson, Senior Vice President, Labor, Immigration, and 
  Employee Benefits, U.S. Chamber of Commerce
  Oral Testimony.................................................    24
  Prepared Statement.............................................    26
Emily Tulli, Policy Attorney, National Immigration Law Center
  Oral Testimony.................................................    34
  Prepared Statement.............................................    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Trey Gowdy, a Representative 
  in Congress from the State of South Carolina, and Chairman, 
  Subcommittee on Immigration and Border Security................     2
Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................     7
Prepared Statement of the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................     9
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................    51
Material submitted by the Honorable Trey Gowdy, a Representative 
  in Congress from the State of South Carolina, and Chairman, 
  Subcommittee on Immigration and Border Security................    74

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................    90


 HOW E-VERIFY WORKS AND HOW IT BENEFITS AMERICAN EMPLOYERS AND WORKERS

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2013

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 4:10 p.m., in 
room 2141, Rayburn Office Building, the Honorable Trey Gowdy 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Goodlatte, Smith, King, 
Jordan, Labrador, Lofgren, Gutierrez, Garcia, and Pierluisi.
    Staff present: (Majority) Allison Halataei, Parliamentarian 
& General Counsel; Andrea Loving, Counsel; Graham Owens, Clerk; 
and (Minority) Tom Jawetz, Counsel.
    Mr. Gowdy. Good afternoon. This is a hearing entitled: How 
E-Verify Works and How It Benefits American Employers and 
Workers. Welcome to all of our witnesses, and on behalf of all 
of us, we apologize for the fact that you were waiting on us. 
We had votes, and it is unavoidable.
    The Subcommittee on Immigration and Border Security will 
come to order. Without objection, the Chair is authorized to 
declare recesses of the Committee at any time. And again, we 
welcome all of our witnesses in the interest of time, and 
because you have been waiting on us, I am going to make my 
statement part of the record so we can get to your testimony 
quicker.
    [The prepared statement of Mr. Gowdy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   __________
    Mr. Gowdy. And with that, I am going to recognize the 
Ranking Member, the gentlelady from California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I will also make my 
statement part of the record and simply note that E-Verify can 
only work if we reform the immigration system. Otherwise, we 
are just finding out how dysfunctional it really is. That is 
one issue.
    And also I am concerned about the error rate. I know we are 
making great improvements, but if there is a massive expansion, 
we are talking potentially over 100,000 Americans who might 
lose a job and need a remedy. And I am hoping the Committee can 
deal with that.
    And with that, I will ask unanimous consent to put my 
statement in the record.
    Mr. Gowdy. Without objection.
    [The prepared statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                   on Immigration and Border Security
    I appreciate that Chairman Goodlatte and Chairman Gowdy have 
scheduled this hearing to get updated information on the E-Verify 
system and how it is, and is not, working. Last Congress, we held three 
hearings on this issue, and we marked up a bill on it as well. I think 
we learned a great deal from all that work.
    For starters, we know that expansion of E-Verify can only happen in 
tandem with other necessary reforms to our broken immigration system. 
We also know that the E-Verify system continues to need improvement.
    Expanding E-Verify thus requires us to engage in two distinct 
conversations. How do we improve our immigration laws so mandatory E-
Verify does not damage our economy and hurt U.S. businesses and 
workers? And how do we improve the system so that database errors and 
other problems do not harm them either?
    There is no dispute that our immigration system is broken and fails 
to meet the needs of our country. Just yesterday we discussed our 
system's failure in the agricultural sector, where 50-75% of the 1.6 
million people working in the fields are undocumented. If all growers 
were required to use E-Verify, we would confirm what we all know to be 
true: that American agricultural is built on the backs of undocumented 
immigrants.
    But would that knowledge help anyone? Just look at the damage done 
to farmers in Georgia and Alabama after those states made E-Verify 
mandatory. In the months after the laws were enacted, farmers suddenly 
found themselves with ripening harvests but without sufficient workers. 
Georgia Governor Nathan Deal bussed in ex-convicts to do the work, but 
that was a complete failure. The losses in Georgia alone were estimated 
to reach $300 million.
    Without top-to-bottom-reform of our immigration laws, expanding E-
Verify would devastate the agricultural economy, resulting in closed 
farms, a less-secure America, and the mass off-shoring of millions and 
millions of U.S. jobs, including all of the upstream and downstream 
jobs that are created and supported by our agriculture industry.
    Expanding E-Verify without more would also cost the government 
significant tax revenues. In 2008, the Congressional Budget Office and 
the Joint Committee on Taxation concluded that mandatory E-Verify in 
Rep. Heath Shuler's SAVE Act would decrease federal revenues by $17.3 
billion over a 10-year period. Those offices determined that expanding 
E-Verify to an economy with a significant undocumented workforce would 
drive employers and workers off-the-books and into the underground 
economy.
    The end result would be lost tax revenues and depressed wages and 
working conditions for all workers, including U.S. workers.
    We also know that although the E-Verify system has improved over 
the years, it continues to need improvement. According to studies, 
USCIS has been successful in reducing the E-Verify error rate. This 
means that fewer U.S. citizens and other authorized workers are now 
being incorrectly rejected by the system.
    But mistakes still happen. Recent USCIS data indicates that 0.26% 
of the 20.2 million E-Verify queries submitted in FY 2012 were 
confirmed as employment authorized after first receiving a tentative 
non-confirmation. If E-Verify was expanded to cover all 60 million new 
hires each year, that error rate would mean that 156,000 authorized 
workers would have to clear up errors in government databases--either 
by calling USCIS or visiting a Social Security office--to avoid losing 
their job.
    Of course, that assumes every employer uses E-Verify correctly. It 
assumes that employers do not use E-Verify to pre-screen workers before 
hire, and it assumes that employers properly notify employees when they 
receive tentative non-confirmations. But studies have shown that 
neither of those assumptions is accurate, which means that some 
authorized workers are undoubtedly being denied jobs or terminated 
based upon incorrect information in government databases.
    USCIS data shows that 0.9% of tentative non-confirmations are never 
challenged. Some of these cases certainly involve people who lack work 
authorization. But we know that this percentage--which amounts to 
540,000 cases each year if applied to all 60 million new hires--
includes people who were not informed of tentative non-confirmations 
and who had no chance to correct their records and save their jobs.
    Expanding E-Verify--even as part of a broader immigration reform 
effort--without ensuring that proper safeguards are in place, is just 
one more way in which E-Verify would not benefit American workers.
    The witnesses before us today will help us evaluate how E-Verify is 
working. Just as importantly, I think they will help us understand what 
more needs to take place if we are to expand the system to all 
employers. I am pleased to have these witnesses before us today and I 
look forward to their testimony.
                               __________

    Mr. Gowdy. And I am grateful to the gentlelady for helping 
to expedite this.
    I am going to introduce all the witnesses and briefly give 
their bio, and then we will recognize from my left to right, 
your right to left. At some point after I do--I knew it was a 
matter of time before I made a mistake.
    I want to recognize the Chairman of the full Committee, the 
gentleman from Virginia, Mr. Goodlatte, for his opening 
statement.
    Mr. Goodlatte. Well, thank you, Mr. Chairman. I am going to 
join you and the Ranking Member in putting my statement into 
the record.
    But I do want to say how important I think E-Verify is as 
we work through the entire issue of immigration law reform. We 
had a failure in 1986 with immigration that did grant a pathway 
to citizenship for nearly 3 million. The people who passed it 
at the time believed that they were taking care of this 
problem, but because they did not have a good enforcement 
mechanism, and the laws that were put on the books were indeed 
not enforced, we have a much greater problem today.
    E-verify is not the entire solution, but it is a critical 
part of the enforcement solution making it easier for employers 
to be able to know whether the person presenting their 
credentials to them for a job are indeed the person they say 
they are and have the authorization that they claim to have. 
And it does so electronically, which I think we are going to 
see a demonstration of here today, so let us get on with the 
opportunity to do that.
    And I will put the rest of my statement in the record. 
Thank you.
    [The prepared statement of Mr. Goodlatte follows:]
Prepared Statement of the Honorable Bob Goodlatte, a Representative in 
  Congress from the State of Virginia, and Chairman, Committee on the 
                               Judiciary
    Thank you Chairman Gowdy.
    Nearly every discussion regarding the reform of U.S. immigration 
laws acknowledges that we must have in place a nationwide, mandatory 
system for employers to electronically verify the work authorization of 
their employees.
    That sentiment exists whether the discussion is about a 
comprehensive approach, as is being worked on by the Gang of Eight in 
the Senate, or more methodical approach, as preferred by many other 
Members of Congress.
    Even President Obama has stated his support for a mandatory 
electronic employment verification system. In fact, one of the titles 
of the White House immigration reform bill that was leaked to the press 
recently included just that--a mandatory electronic employment 
verification system.
    Of course there is already such a system in place. It is called E-
Verify and was created by this Committee in the ``Illegal immigration 
Reform and Immigrant Responsibility Act of 1996.''
    At this point, the system is voluntary for the vast majority of 
U.S. employers. However some states and localities do require certain 
employers to use it.
    Over 433,000 employers are currently signed up to use E-Verify. It 
is easy for employers to use and is effective. In fact in a January 
2013 Customer Satisfaction Survey by U.S. Citizenship and Immigration 
Services (USCIS), E-Verify received an 86 out of 100 on the American 
Customer Satisfaction Index Scale.
    But the system is not perfect. For instance, in cases of identity 
theft, when an individual submits stolen identity documents and 
information, E-Verify may confirm the work eligibility of that 
individual.
    This happens because E-Verify uses a Social Security Number (SSN) 
or alien identification number and certain other corresponding 
identifying information such as the name and date of birth of an 
individual, to determine if the SSN or alien identification number 
associated with that corresponding information is work eligible. Thus 
if an individual uses a stolen SSN and the real name corresponding with 
that SSN, a false positive result could occur.
    It is my understanding that the percentage of cases in which this 
identity theft loophole is a factor is relatively small. The witness 
from USCIS will discuss this issue and what USCIS is doing to help 
prevent it.
    There are other improvements that may need to be made to E-Verify 
in the event that the system is made mandatory for all U.S. employers. 
And I look forward to hearing the witnesses' views on any such 
improvements today.
    Each one of our witnesses has a distinct perspective on E-Verify.
    The USCIS witness will give us an overview of the system, how it 
works and its accuracy. The employer witness will tell us how E-Verify 
works as a practical matter in the business setting. And The U.S. 
Chamber of Commerce witness will discuss why the vast majority of the 
business community supports mandatory E-Verify.
    Employers must have an effective way to determine the work 
eligibility of their employees. Expanding and improving the already in 
place E-Verify system is the most cost-effective and sensible way to 
ensure just that.
    Thank you Mr. Chairman and I yield back the balance of my time.
                               __________

    Mr. Gowdy. I thank the Chairman.
    I will introduce you, and then we will have a demonstration 
of E-Verify, and then we will recognize you for your opening 
statements.
    First, and I am just going to apologize in advance for 
pronunciations that are a function of my inability to 
phonetically do things very well, so I will apologize.
    Ms. Soraya Correa--is that close? All right. Perfect it 
probably is not, but maybe close. Currently serves as the 
associate director for the U.S. Citizenship and Immigration 
Services Enterprises Services Directorate, and is responsible 
for delivering identity immigration status and employment 
authorization information in support of the USCIS mission. She 
also oversees the Biometrics Division, National Records Center, 
Records Division, and Verification Division.
    She has an undergraduate certification in acquisitions 
management from the American University in Washington, D.C. and 
a BA in management from National Louis University.
    Mr. Chris Gamvroulas is president of Ivory Development, the 
land acquisition and development affiliate of Ivory Homes 
headquartered in Salt Lake City, Utah. Chris joined Ivory Homes 
in 1993 and was appointed president of Ivory Development in 
1996. Since that time he has overseen the land acquisition, 
planning, and titlement construction of over 14,000 home sites 
and hundreds of acres of retail, industrial, and commercial 
properties totaling nearly $1 billion in real estate assets.
    He attended Harvard Business School Advanced Management 
Program and holds a bachelor of science degree in political 
science from the University of Utah.
    Mr. Randel K. Johnson is the senior vice president of the 
United States Chamber of Commerce for Labor, Immigration, and 
Employment Benefits Issues pending before Congress and the 
Federal agencies. Before joining the U.S. Chamber, he served as 
counsel to the U.S. House of Representatives Committee on 
Education and the Workforce.
    Mr. Johnson is a graduate of Denison University and the 
University of Maryland School of Law and earned his master of 
laws in labor relations from Georgetown.
    And finally, Ms. Emily Tulli is policy attorney for the 
National Immigration Law Center. Her advocacy focuses on 
maintaining and expanding the rights of low-wage immigration 
workers, and she monitors and analyzes Federal legislative 
developments affecting immigrants in the workplace.
    She holds a JD from the College of William and Mary in the 
Chairman's home State.
    With that I believe we have a demonstration of E-Verify, 
and you are welcome to take it away.
    Ms. Lotspeich. All right. We are going to bring this up on 
the screen here. Kathy Lotspeich. I am the deputy chief for the 
verification division at U.S. Citizenship and Immigration 
Services, and I am going to run for you this afternoon 2 cases, 
one case that goes through automatically and one case that gets 
a tentative non-confirmation response.
    So just a note, I am using test data today on our test 
system.
    So this is what the log-in looks like. I am going to click 
``new case,'' and it asks you what the individual attested to 
on their Form I-9. I am going to, for this demonstration, 
select ``citizen of the United States.'' It then asks what 
documents they presented on the Form I-9, and for this 
demonstration I am going to select ``list B and C documents.'' 
Then it asks which list B and C documents did you present, so 
here I am selecting ``driver's license'' and ``Social Security 
card.''
    Then we go down to the next here. Hit ``continue.'' It is 
going to ask you what State the driver's license was issued, 
selecting ``Kansas.'' And then it asks you to fill out the name 
of the individual, the date of birth. It is going to ask for 
the Social Security number. The system also wants to make sure 
the document shown for the Form I-9 is still valid, so it asks 
you for the date in which the document expires. And then you 
have to put in the higher date, which has to be within 3 days 
of the current date, and then you hit ``continue.''
    So here you will see the responses. This individual's 
employment is authorized. It has a little summary of the 
information that was submitted with this case, and then up here 
at the top is the case verification number, which the employer 
is asked to record on the Form I-9.
    Now, I am going to demonstrate a case where an individual 
is not automatically employment authorized, again using the 
same profile, driver's license, Social Security, the State in 
which the card was issued. And all of this information is what 
the employer can find on the Form I-9. Expiration date and date 
of hire. Select ``continue.''
    So here the system understands that it is about to issue a 
tentative non-confirmation or sort of a yellow light response 
in which the individual may need to follow up with the 
government. And it does remind the employer one more time to 
look at the case, so as you saw previously it went 
automatically through. But here we are trying to give them a 
second chance to avoid any typos.
    I am going to go ahead and click ``continue.'' And here it 
says that the individual has received a tentative non-
confirmation. Underneath it states that the name or date of 
birth entered for this employee did not match Social Security 
Administration records. It clarifies that this does not mean 
that the employee is not authorized to work in the United 
States. However, additional action is required.
    So the employer would click ``continue.'' And here they can 
select a notice to give to the employee to tell them about the 
tentative non-confirmation, ask if they want to test or follow 
up with that tentative non-confirmation. We have this letter 
pre-populated in English and in Spanish, and we also have it 
translated in 17 other languages in our resource section.
    I will show what you what the notice looks like. So the 
notice has the information about the employee, the reason for 
the tentative non-confirmation. It gives information on what 
they are supposed to do. It reminds the employer that this 
information can be found in 17 other languages. And it asks the 
employee to sign that letter. The employer must give it to the 
employee.
    Also there are special instructions for the employee on the 
next page telling them what they must do and what their rights 
are.
    The employer must confirm that they have notified the 
employee of this tentative non-confirmation. It does not have 
to happen on the spot. The employer has the ability to save the 
case and exit if the employee is in their immediate view. It 
could happen over a day or so. Click ``continue.''
    And if the individual decides to contest their tentative 
non-confirmation, then the employer has to refer this to the 
government so we know to expect that person to contact us. If 
they do not choose to contest, they may be terminated.
    I am going to click ``continue,'' and here refer the case. 
And that case will then to go to either the Social Security 
Administration or the Department Homeland Security, and will 
wait for the employee to contact them within 8 days.
    And that is the conclusion of this demonstration. Thank 
you.
    Mr. Gowdy. Thank you very much for doing that. I will now 
recognize our witnesses for their opening statements. We will 
begin with Ms. Correa. And the lights mean what they 
traditionally mean in life. A red light means do your best to 
wrap up that thought.
    And with that, Ms. Correa.

  TESTIMONY OF SORAYA CORREA, ASSOCIATE DIRECTOR, ENTERPRISES 
SERVICES DIRECTORATE, U.S. CITIZENSHIP AND IMMIGRATION SERVICES

    Ms. Correa. Thank you. Chairman Goodlatte, Chairman Gowdy, 
and Ranking Member Lofgren, and Members of the Subcommittee. I 
appreciate this opportunity to discuss with you our shared goal 
of effective employment eligibility verification through the E-
Verify program.
    USCIS has made significant progress and improvements in the 
E-Verify program since we last appeared before this 
Subcommittee in February 2011. Our focus remains on ensuring 
the accuracy, efficiency, and integrity of the system while 
increasing awareness, knowledge, and understanding of the 
program for both the employers and the employees.
    I am pleased to report that use of E-Verify continues to 
grow and the system continues to score high marks in customer 
satisfaction.
    Since 2007, the number of employee has grown from 24,000 to 
over 430,000. Last Fiscal Year, E-Verify processed over 21 
million queries, a more than five-fold increase since Fiscal 
Year 2007.
    E-Verify received a customer satisfaction score of 86 out 
of 100 on the 2012 American Customer Satisfaction Index. The 
vast majority of users surveyed were likely to recommend E-
Verify to other employers, were confident in its accuracy, and 
were likely to continue using the system.
    Improving the accuracy of the E-Verify system remains our 
primary goal. When examining E-Verify accuracy, it is important 
to look at 2 rates: accuracy for authorized workers and 
accuracy for unauthorized workers. I want to first talk about 
accuracy for authorized workers.
    A common misperception of E-Verify's accuracy rate is that 
the underlying government data is wrong whenever a mismatch or 
a tentative non-confirmation or TNC is returned. However, TNC 
is only an indication of a discrepancy between the information 
provided to E-Verify and the information in the government 
databases.
    For example, the employee must notify the Social Security 
Administration of a name change following marriage or other 
legal proceeding. The employer needs to ensure that it enters 
the name exactly as it appears on the Form I-9, and the U.S. 
government needs to update its records in a timely fashion. 
Thus, the accuracy of E-Verify requires the action of 3 
parties: the employer, the employee, and the U.S. government.
    Independent evaluations of E-Verify conducted by Westat 
Corporation found that the TNC rate for authorized employees--
those employees who had to resolve a TNC based on a data 
discrepancy, declined from .7 percent to .3 percent, resulting 
in an accuracy rate of 99.7 percent. With respect to 
unauthorized workers, the accuracy rate is based on the system 
issuing a TNC that ultimately results in a final non-
confirmation or FN, because the unauthorized worker is 
accurately identified as not being eligible to work. The Westat 
study found that 94 percent of FNCs were accurately issued by 
E-Verify.
    We also are working to improve the identify verification 
aspect of E-Verify. Detecting identity fraud in employment 
verification requires a multi-level approach which I laid out 
in my written testimony.
    In November 2010, USCIS expanded E-Verify's photographic 
matching tool to include U.S. passports and U.S. passport 
cards. In the customer satisfaction survey, users rate the 
photo tool very highly as a method for reducing fraud.
    USCIS is developing other methods for reducing fraud, such 
as monitoring repeated use of Social Security numbers and a 
system enhancement that allows employees to lock their Social 
Security numbers in E-Verify.
    Our monitoring and compliance branch actively monitors E-
Verify to ensure employers use the system properly. USCIS is 
also working closely with the Department of Justice's Office of 
Special Counsel to effectively prevent discrimination and 
misuse that adversely affects employees.
    To guard against avoidable TNCs and protect employee 
rights, USCIS launched Self-Check, a service of E-Verify. Self-
Check empowers individuals by allowing them to verify their 
work authorization status online and proactively resolve 
records mismatches before formally seeking employment. Over 
180,000 individuals nationwide have used the Self-Check 
service.
    To inform the public about E-Verify, USCIS has robust 
outreach initiatives that include radio, print, and online ads 
in English and in Spanish, as well as public events and live 
webinars. USCIS maintains a toll free employer customer line 
and employee hotline for E-Verify users. In addition, a new 
multimedia employee rights toolkit is available online in 
English and in Spanish to help employees understand the 
program.
    USCIS is committed to continue the expansion of the E-
Verify program while ensuring the accuracy, efficiency, and 
integrity of the system. We are equally committed to increasing 
compliance, knowledge, and understanding of the program and how 
it benefits the American workforce.
    On behalf of all of my colleagues at USCIS, we appreciate 
Congress' continued strong support of the E-Verify program. I 
again thank you for this opportunity to testify before the 
Subcommittee, and I look forward to answering your questions.
    [The prepared statement of Ms. Correa follows:]
 Prepared Statement of Soraya Correa, Associate Director, Enterprises 
    Services Directorate, U.S. Citizenship and Immigration Services
                 summary of advancements for testimony

Introduction
    Chairman Gowdy, Ranking Member Lofgren, and Members of the 
Subcommittee, I appreciate the opportunity to discuss our shared goal 
of providing effective mechanisms for verifying employment eligibility. 
My name is Soraya Correa, and, as the Associate Director for the 
Enterprise Services Directorate of U.S. Citizenship and Immigration 
Services (USCIS), I am responsible for overseeing the E-Verify program. 
I appreciate this opportunity to share information on USCIS's 
continuing efforts to increase E-Verify's accuracy and efficiency, 
maintain its integrity, and expand its use. I also want to use this 
opportunity to update the Subcommittee on progress that has been made 
with the E-Verify program since the previous Associate Director 
appeared before this Subcommittee on February 10, 2011. The work that 
we have completed to improve the program and the additional steps that 
we plan to take will ensure that we have an accurate and accessible 
System that meets the needs of employers and workers.

            Continued Program Growth

    I am pleased to report that the E-Verify program continues to grow. 
The number of employers registered to use the E-Verify Program has 
grown rapidly to more than 432,000 as of February 2013 compared to only 
24,000 in fiscal year (FY) 2007, with the number of new employer 
registrations averaging between 1-2,000 per week in FY 2012. More than 
50,000 federal contractors are enrolled in E-Verify.
    We have seen a steady increase in the volume of queries. Last 
fiscal year, E-Verify processed 21.1 million queries, a more than five-
fold increase from the 4.0 million queries processed in FY 2007. In FY 
2012, almost 92 percent of those queries were on U.S. citizen workers. 
In FY 2013 to date, employers have run over 7.1 million queries. Also, 
USCIS has continued to expand the number of databases queried and has 
deployed other enhancements to help minimize employer data entry errors 
to reduce E-Verify initial mismatches.

            Customer Satisfaction Increases as the Program Grows

    E-Verify continues to score high marks in employer customer 
satisfaction. E-Verify was given a customer satisfaction score of 86 
out of 100 on the American Customer Satisfaction Index (ACSI) survey 
performed in 2012. This is a one point improvement over the prior year 
score of 85, and our score has remained exceptionally high compared to 
the average score for a government program, which is 67.
    ACSI surveyed E-Verify users and evaluated key aspects of the 
program such as registration, the online tutorial, ease of use, 
technical assistance and customer service. Key findings of the survey 
revealed that the vast majority of users were likely to recommend E-
Verify to other employers (score of 86), were confident in E-Verify's 
accuracy (score of 87), and were likely to continue using the program 
(score of 94).
    One of the aspects of E-Verify that respondents liked the most was 
customer service. Of those surveyed, 13 percent had contacted E-Verify 
customer service representatives within the past six months. The index 
found that the majority of these respondents (score of 94) were 
satisfied with the customer service support they received from E-
Verify.

Increasing E-Verify Accuracy and Efficiency

            Improvements in Accuracy for Authorized Employees

    A common misperception of E-Verify's accuracy rate is that the 
underlying government data is wrong whenever a mismatch--or tentative 
nonconfirmation (TNC)--is returned. However, a TNC only indicates that 
there is a discrepancy between the information provided to E-Verify and 
the information in one of the checked databases. This discrepancy can 
occur for several reasons: 1) an employee did not to update his or her 
information with the Social Security Administration (SSA) or the 
Department of Homeland Security (DHS), or made an error when completing 
the Form I-9; 2) the employer made an error when entering information 
into E-Verify; 3) there was a data error in the employee's government 
record; or 4) an unauthorized worker provided fraudulent information. 
In the latter situation, the TNC is not based on error but from E-
Verify doing exactly what it is designed to do: detect and prevent 
unauthorized employment in the United States.
    In all cases, E-Verify provides the employee with the option to 
contest the TNC and instructs employers to continue the employee's 
employment while he or she works to resolve the issue as appropriate. 
Thus, the accuracy of E-Verify requires the action of three parties: 
the employer, the employee, and the U.S. government. For example, the 
employee needs to keep his or her records updated with the appropriate 
government agency, such as with a name change update at SSA following 
marriage. The employer needs to ensure that it enters the data as it 
appears on the Form I-9, gives prompt notice of the TNC to the 
employee, and allows the employee to work if the employee contests the 
TNC; and the U.S. government needs to update its records in a timely 
fashion when an employee adjusts status or updates information.
    USCIS continues to improve E-Verify's accuracy by increasing the 
number of databases checked by the system and making enhancements to 
reduce the likelihood of employer typos and other data entry errors. 
The addition of naturalization and U.S. passport data has reduced 
mismatches for naturalized and derivative citizens by 30 percent on 
average. In October 2012, access to DHS's Arrival and Departure 
Information System (ADIS) database was added to E-Verify, which helps 
to improve match rates for recent arrivals.
    As a result of these efforts, a review of FY 2012 data found that 
approximately 98.7 percent of all employees were confirmed as work 
authorized either automatically, or within 24 hours. The remaining 1.3 
percent contained a mix of TNCs based on errors (whether employer, 
employee or government error) and TNCs where the person was not 
authorized to work in the United States.
    In 2011, we reported that another independent evaluation of E-
Verify was underway. Although the report is currently under review, the 
Westat Corporation reports that the TNC rate for authorized employees--
those employees who had to resolve a TNC based on a data discrepancy as 
explained above--continues to decrease. Using model-based estimates, 
the report concluded that the rate of authorized employees who need to 
follow up with SSA or DHS has declined from 0.7 percent to 0.3 percent 
when comparing data from similar time periods in 2005 and 2010. This 
report will be released later this year.

Maintaining the Accuracy and Integrity of E-Verify

            Strengthening E-Verify and Combating Identity Fraud

    Detecting identity fraud in employment verification requires a 
multilevel approach. First, the employer is required to verify identity 
of the new employee when inspecting his or her documents by ensuring 
that they reasonably appear to be genuine and to relate to that 
employee. However, if an unauthorized employee provides the employer 
with biographic data such as a name, date of birth, or Social Security 
number of an authorized individual backed up with documentation that 
appears valid--either by borrowing employment eligibility documents or 
presenting fake documents with valid biographic information--then E-
Verify very well may indicate the employee is work authorized. In such 
cases, E-Verify is authorizing the person whose biographic data is 
submitted, and not the unauthorized worker who is fraudulently 
providing that data.
    USCIS takes extremely seriously the threat posed by identity fraud 
in this context and has taken a number of significant steps to enhance 
program safeguards.
    In November 2010, USCIS expanded E-Verify's photographic matching 
tool to include U.S. passports and U.S. passport cards. The addition of 
U.S. passport photos allows the employer to match the photo displayed 
in E-Verify to the photo on the employee's U.S. passport or U.S. 
passport card to determine whether the card was fraudulently produced. 
In FY 2012, approximately 15 percent of all E-Verify cases used the 
photo tool.
    E-Verify users rate the photo tool very highly as a method for 
reducing fraud. The 2012 ACSI rating of E-Verify found that the photo 
tool scored 95 points on a scale of 1 to 100. Employers found the photo 
tool to be easy to use (score of 95) and thought it was helpful in 
preventing fraud (score of 94). The photo tool was the highest rated 
feature of E-Verify in the ACSI survey.
    Since our last testimony in February 2011, we further strengthened 
E-Verify's anti-fraud capabilities by launching a pilot program in June 
2011 that allows E-Verify to match the information on a driver's 
license presented by an employee with a participating states' 
Departments of Motor Vehicles database. USCIS is piloting this effort 
with the states of Mississippi and Florida.
    These fraud-prevention efforts are proving successful. The recent 
Westat evaluation found that 94 percent of Final Nonconfirmations 
(FNCs) were issued correctly to employees not authorized for work. 
USCIS is developing other methods for reducing fraud in E-Verify, such 
as monitoring Social Security numbers (SSNs) that are used repeatedly, 
evaluating other identity assurance techniques like those used in E-
Verify's Self Check, and developing an enhancement to allow employees 
to lock their SSNs in E-Verify so they cannot be used by others.

            USCIS Continues to Improve Monitoring of E-Verify for 
                    Misuse

    E-Verify's Monitoring and Compliance Branch (M&C) continues to 
increase monitoring of E-Verify to identify potential instances of 
repeated and egregious misuse by employers. M&C uses and is updating 
and expanding behavioral algorithms to detect patterns of potential 
program misuse in E-Verify transactional data. M&C also uses different 
compliance assistance tools to assist employers with the proper use of 
E-Verify, such as emails, telephone calls, desk reviews, and site 
visits. In FY 2012, M&C issued more than 65,000 compliance assistance 
actions (telephone calls, letters, and emails) and completed 35 site 
visits to provide assistance to employers and gain a better 
understanding of their use of the E-Verify program. Another example of 
M&C's compliance assistance efforts is the E-Verify Self Assessment 
Guide, a publication launched in FY 2012 that employers can use to help 
detect and deter noncompliant activities and resolve them quickly.
    M&C also refers instances of suspected egregious noncompliance to 
U.S. Immigration and Customs Enforcement (ICE) or the Department of 
Justice's Office of Special Counsel for Immigration-Related Unfair 
Employment Practices (DOJ/OSC). In FY 2012, USCIS referred three cases 
to ICE for suspected egregious noncompliance, 21 cases to ICE for 
fraudulent documents, and 51 cases to OSC for suspected unfair 
immigration-related employment practices.

            Protecting Employee's Rights

    USCIS works closely with DOJ/OSC to educate employers, prevent 
discrimination, and refer possible misuse that adversely affects 
employees. We provide E-Verify data to DOJ/OSC in response to law 
enforcement requests. DOJ/OSC also refers to USCIS those instances of 
employer E-Verify misuse brought to DOJ/OSC's attention through charges 
filed with DOJ or through DOJ's hotline that fall outside of DOJ/OSC's 
jurisdiction. USCIS also has co-produced with DHS's Office for Civil 
Rights and Civil Liberties (CRCL) two videos in English and Spanish on 
employee rights and employer responsibilities that are posted to the 
USCIS YouTube web page and the USCIS and CRCL websites, and regularly 
conducts joint webinars with USCIS/OSC on these subjects. Employees 
also can report complaints about E-Verify system misuse by calling the 
E-Verify Hotline and/or the DOJ/OSC Hotline. In our commitment to 
provide multilingual materials for employees, all TNC and referral 
letters, which instruct employees on how to resolve a TNC, are 
currently available in 17 foreign languages.
    To further protect employee rights, in March 2011 USCIS launched 
Self Check, a service of E-Verify, in five states and Washington, D.C. 
Self Check is an innovative service that empowers individuals to check 
online whether government databases used by E-Verify correctly match 
the information they enter into the systems and to proactively resolve 
records mismatches before formally seeking employment. Since 2011, we 
have expanded Self Check nationwide (including to U.S. territories) in 
both English and Spanish. Over 180,000 individuals nationwide have 
availed themselves of the Self Check service. The number of individuals 
using Self Check continues to grow due to outreach materials on Self 
Check available online in a new Employee Rights Toolkit. Self-Check 
also uses identity assurance techniques to prevent an individual from 
checking the work authorization of another person and to prevent 
unfettered access to E-Verify from other entities, such as employers 
who would use Self Check to prescreen for other purposes.
    USCIS is continuing to develop initiatives that protect employee 
rights. Another major effort under development is the ability for 
employees to receive an email alerting them that they have received a 
TNC and to check with their employer. This initiative is contingent 
upon the employee providing an email address during the Form I-9 
employment verification process for the employer to enter into E-
Verify. This feature will provide the added benefit to employees of a 
secondary notification of the TNC. USCIS, in collaboration with SSA and 
DOJ/OSC is also developing a formal process for employees to request a 
review of FNCs that they believe were received in error.

Increasing the Use of E-Verify
    USCIS has developed a robust outreach program to increase public 
awareness of E-Verify's significant benefits. USCIS informed millions 
of people about E-Verify in FY 2012 through radio, print, and online 
ads in English and Spanish, and thousands more through 186 public 
events, 355 live webinars, and distribution of informational materials. 
In FY 2012, USCIS handled more than 217,000 calls from E-Verify 
employers through its toll-free customer line and more than 116,000 
calls from employees through its employee hotline.
    E-Verify users can get the latest information on E-Verify from the 
E-Verify Connection newsletter. The newsletter has an estimated 1 
million readers. E-Verify Connection provides employers and employees 
with information and updates about employment eligibility, verification 
Form I-9, E-Verify and Self Check, plus a schedule of upcoming events, 
such as webinars and local presentations.
    Other public education accomplishments include the release of E-
Verify User Guides for both the employee and the employer, in English 
and Spanish, and an updated and redesigned E-Verify Questions and 
Answers web site. The Employee Rights Toolkit is available online, also 
in English and Spanish, with multimedia materials to help assist 
employees with the employment-eligibility verification process and 
other important topics (e.g., upcoming releases).
    To help the public learn about the employers enrolled in E-Verify, 
USCIS updated the E-Verify website in FY 2012 by adding a brand new 
online search tool. The E-Verify Employer Search Tool gives the public 
the ability to search and view E-Verify employers. Individuals can now 
search, filter, sort, and view employer information by name, state, 
city, zip code, and workforce size.
    Future outreach communications will be aimed at emphasizing the 
exceptional customer satisfaction level of E-Verify employers and the 
program's continued and successful attempts to improve year after year 
based on customer feedback.

Conclusion
    USCIS is committed to continue the expansion of the E-Verify 
program while ensuring the accuracy, efficiency, and integrity of the 
system and simultaneously increasing compliance, knowledge, and 
understanding of the program and how it benefits the American 
workforce.
    On behalf of all of our colleagues at USCIS, we appreciate 
Congress's continued strong support of the E-Verify program.
                               __________

    Mr. Gowdy. Thank you, ma'am.
    Mr. Gamvroulas.

   TESTIMONY OF CHRISTOPHER P. GAMVROULAS, PRESIDENT, IVORY 
  DEVELOPMENT, ON BEHALF OF THE NATIONAL ASSOCIATION OF HOME 
                            BUILDERS

    Mr. Gamvroulas. Chairman Gowdy, Ranking Member Lofgren, 
Members of the Subcommittee on Immigration and Border Security, 
thank you for this opportunity to testify.
    My name is Chris Gamvroulas. I am the president of Ivory 
Development based in Salt Lake City. Ivory Homes is one of the 
more than 140,000 members of the National Association of Home 
Builders. To ensure Ivory Homes only employs individuals 
authorized to work in the United States, we use the E-Verify 
employment verification system.
    In 2010, the State of Utah imposed a requirement that all 
employers with 15 or more employees must use E-Verify. Ivory 
Homes worked closely with the Utah legislature to craft a 
reasoned approach to balance compliance with the law with the 
needs of employers, particularly small businesses. Once the 
State enacted the law, Ivory Homes immediately came into 
compliance with E-Verify. We trained our human resource staff 
to act in accordance with the law. On the whole, we have found 
E-Verify to be an efficient and effective system.
    Generally speaking, the system is easy to use and has the 
potential for quick turnaround. Since 2010, Ivory Homes has 
processed approximately 320 employees through E-Verify. In all 
that time we have only had 4 hires receive a tentative non-
confirmation, none of whom to date have protested the mismatch.
    Anecdotally, we suspect non-employable applicants refrain 
from pursuing jobs once they learn their identification will be 
processed in E-Verify. We believe that E-Verify is working as 
intended, and it is possible the potential hires who might be 
undocumented are self-policing.
    The implementation of the system has not been without its 
problem. However, none of them has proven to be impossible to 
overcome. For example, there is no notification of when the 
system is updated and new training requirements have to be 
passed. That has caused confusion and delays within our human 
resources staff. There must be a process to inform and educate 
business about the requirements of and changes to the program 
beyond what is in the Federal Register. These are simple 
improvements that would enhance the system and make it more 
user friendly for all businesses, large and small.
    As an employer, it would be preferable for our company to 
begin the E-Verify process when a worker accepts a position 
rather than be required to wait until after the worker's start 
date. This cannot be understated. If a newly-hired employee 
eventually receives a final non-confirmation confirming that 
they are ineligible to work, we lose time and resources 
dedicated to training that individual only to have to start the 
hiring process all over again. Allowing us to verify worker 
status the day they accept the job offer will give us more lead 
time to handle tentative non-confirmations.
    Last Congress, NAHB, of which Ivory Homes is a proud 
member, supported the Legal Workforce Act introduced by former 
Chairman Lamar Smith. This legislation was an important first 
step in creating a system that is workable, and we hope to see 
similar elements in any new legislation you consider. The Legal 
Workforce Act provided a strong safe harbor to ensure that 
those of us who use the system in good faith will not be held 
liable by the government or by the employer's workers for 
errors in the system.
    The legislation also maintains current law with regard to 
the verification of an employer's direct employees. Under 
current law, Ivory Homes, like all employers, are responsible 
for verification of the identity and work authorization status 
of their direct employees only. While we do not verify the 
employees of subcontractors, we are precluded from knowingly 
using unauthorized subcontracted workers as a means of 
circumventing the law.
    E-Verify can only confirm work authorization based on those 
documents presented. It cannot confirm whether the person 
presenting those documents is, in fact, the same person 
represented in those documents. The government also must be 
able to improve the E-Verify system by seeking ways to limit or 
eliminate identify fraud.
    This is also another reason why it is vital to have an 
effective safe harbor in any legislation. Until E-Verify can 
detect cases of fraud, employers who use E-Verify should not be 
held accountable for unauthorized workers who have cleared the 
system because of identity theft. If E-Verify is federally 
mandated, it must work for the smallest employer as well as the 
largest. The reality is that many small businesses cannot 
access the Internet from a job site. Providing a telephonic 
option for employers is, thus, important.
    Finally, if employers are going to be required to use the 
Federal E-Verify program, they must be assured that there are 
only one set of rules needed for compliance. A strong Federal 
preemption clause is critical.
    In conclusion, my experience with E-Verify in Utah has been 
positive. The system has been proven to be easy to use, 
protects employees' privacy and rights, and we generally find 
it to be an efficient and effective system.
    I and my association support comprehensive immigration 
reform. Last Congress, NHB supported the Legal Workforce Act. 
We look forward to working with you on this key element of 
immigration reform. Thank you again.
    [The prepared statement of Mr. Gamvroulas follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   __________
    Mr. Gowdy. Thank you, sir.
    Mr. Johnson.

 TESTIMONY OF RANDEL K. JOHNSON, SENIOR VICE PRESIDENT, LABOR, 
  IMMIGRATION, AND EMPLOYEE BENEFITS, U.S. CHAMBER OF COMMERCE

    Mr. Johnson. Chairman Goodlatte, Chairman Gowdy, Ranking 
Member Lofgren, Members of the Immigration Subcommittee. I was 
going to say good evening, but I moved it back up to good 
afternoon.
    I welcome this opportunity to talk about the U.S. Chamber 
of Commerce's views on E-Verify. In past testimony before this 
Subcommittee and others, our view was that the reform, as Mr. 
Smith will remember we used to call it Basic Pilot. We took the 
view that really it was not ripe for prime time and should not 
be imposed on employers for a variety of reasons.
    However, times and circumstances do change, and sometimes 
it becomes necessary to reevaluate one's assumptions and 
position. Obviously we at the Chamber move very slowly and 
carefully before we consider whether or not to support a new 
mandate on our members.
    To this end, and frankly because I do value my job, we 
created a task force to the Chamber comprised of a broad 
section of our membership in January of 2011 to assess whether 
E-Verify should be expanded and changed into a mandate on 
employers for verification obligations. That task force 
comprises a good section of our members, small to large, trade 
associations and companies. And ultimately after a lot of 
analysis, we concluded that the Chamber should support a 
mandatory E-Verify system, provided certain critical conditions 
are met.
    My written testimony goes through these, but let me 
summarize. First, I think as the government testimony has 
already indicated, there has been a lot of numerous technical 
improvements to the system. Is any wrong tentative non-
confirmation acceptable? Well, no. No, it is a problem if any 
U.S. citizen gets denied a job, but it is reassuring to know 
that the correction process is now a lot easier. And that, 
look, I think this is one situation where we cannot let the 
perfect be the enemy of the good.
    Secondly with regard to cost, I know there is some 
information in the record with regard to various numbers 
ranging from $2.7 billion to less. All I can say is our 
economist has looked at the studies. I believe those studies 
have overestimated the impact on some of the Chamber members.
    I think the bottom line, though, and where the rubber meets 
the road, Mr. Chairman, is that our members report that they 
have adapted to the system well, and I hear very, very little 
in terms of adverse impact and cost on their operations.
    Third, I think most importantly, and our prior witness 
already talked about, we need a strong preemption clause with 
regard to State and local E-Verify laws. Various kinds of 
balances have to be struck when you are talking about 
preemption, and we are well aware of that. But certainly our 
members' view is that we need one law across the country, 
setting one standard for employment verification.
    Fourth, and I want to emphasize this, we cannot support an 
E-Verify law that required a re-verification of an entire 
workforce. I will not beat a dead horse on this, except for to 
state the obvious that if you have 100,000 employees in a 
company, it is extremely burdensome to all of a sudden run 
everybody through a new re-verification process, particularly 
when you have already done that under the I-9 process. 
Furthermore, I think it is quite clear that eventually, given 
the turnover in our workforce, most workers will be run through 
E-Verify eventually in any case. So we are past the days when 
an employee stayed with one company forever, let us face it.
    Fifth, with regard to safe harbors, I just want to make 
clear that if an employer is going to comply with the system, 
he or should have some sort of safe harbor from litigation, 
either from enforcement procedures by the Federal Government or 
by an employee who may be wronged because of some adverse 
information provided to the system.
    Sixth, and kind of on a more technical basis, but very 
important to our members, is trying to change the statutes such 
that the I-0 process, which is largely now a written document, 
can be changed so that an employer can populate the information 
on the I-9 directly into E-Verify, skipping sort of this 
paperwork step.
    And seventh, and Mrs. Lofgren talked about this, I think 
any new mandate needs to be rolled out relatively slowly. 
Perhaps we could relate it to border security or some other 
criteria that seems to be popular these days. But we are 
bringing a lot more people into the system, so it should be 
rolled out slowly and hopefully tested as it was rolled out so 
we see some kind of--we get the kinks out of the system before 
it applies to new hires.
    And lastly, I think it is quite clear we all know about the 
problems with agriculture. It is sort of the 800-pound elephant 
in the room that we used to not talk about, but we do. They 
have a lot of unauthorized workers in their workforce. Our 
country depends on that industry. We need to recognize that a 
new E-Verify system simply imposed on that industry would be a 
disaster. I certainly do not have a solution, but we need to 
try and find one with regard to the application of E-Verify to 
agriculture.
    And lastly, I just want to note that we do support, unlike 
the President's bill, the advocation of E-Verify to the entire 
workforce. His bill, in fact, exempted something like 60 
percent of all employers.
    And lastly in my 6 seconds, I just want to note that we 
have strongly supported E-Verify as part of comprehensive 
immigration reform. We will continue to do so. Our 4 planks 
have been border security, more visas for the high-skilled, 
lesser-skilled agriculture, a reliable employment verification 
system, and a means to bring the undocumented out of the 
shadows and give them some kind of legal status in this 
country, and not blocking a pathway to citizenship.
    Thank you for your consideration, Mr. Chairman.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    
    Mr. Gowdy. Thank you, sir.
    Ms. Tulli.

          TESTIMONY OF EMILY TULLI, POLICY ATTORNEY, 
                NATIONAL IMMIGRATION LAW CENTER

    Ms. Tulli. Chairman Gowdy, Ranking Member Lofgren, and 
Members of the Subcommittee, thank you for this opportunity to 
share the National Immigration Law Center's perspective on E-
Verify. The National Immigration Law Center has advocated for 
changes to E-Verify since the program's inception, and 
continues to have grave concerns about the program. E-Verify 
makes all workers, citizens and immigrants alike, more 
vulnerable in the workplace.
    Across the country, labor law violations are rampant, and 
workers are regularly denied their basic rights, like minimum 
wage and overtime. And too often when they try and assert these 
rights, they face retaliation.
    E-Verify actually makes this problem worse because it 
encourages bad behavior by employers. E-Verify encourages 
employers to misclassify workers as independent contractors and 
move them off the books. It also gives employers one more tool 
to retaliate against workers, so if a worker complains about 
mistreatment, the employer can decide to use E-Verify against 
the worker. When employers can easily abuse some workers, all 
American workplaces suffer.
    E-Verify employers routinely violate the program rules, and 
that hurts workers. The only way a worker knows that he has an 
E-Verify error is if an employer tells him. E-Verify is a 
program that is based on an agreement between the employer and 
the government, and workers are really just stuck on the 
sidelines, even though they have the most to lose from an 
error.
    For instance, 42 percent of workers say that they are not 
notified by their employer of an E-Verify error. And if a 
worker does not know that an error exists, they have on way to 
correct it. It is vitally important that the worker know about 
errors in their records because errors can lead to workers 
getting fired through a final non-confirmation.
    Because the livelihood of U.S. citizens is at risk, even 
seemingly small error rates really matter. Using USCIS' own 
statistics, at least 50,000 U.S. workers experienced an E-
Verify error last year, and that is with 93 percent of 
employers not using the program.
    I will give you two examples of E-Verify errors. A U.S. 
citizen in Tennessee actually received an error notice from her 
employer. She went to the Social Security Administration office 
to fix it. She thinks she fixes it at Social Security, but E-
Verify generates another error, an FNC, and she gets fired.
    Another example, a U.S. citizen experienced an error 
because an employer made a simple mistake when they were typing 
the employee's Social Security number into the system. Again, 
that worker went to a Social Security office, could not resolve 
the error there. E-Verify generated an FNC, a final non-
confirmation, and the worker got fired.
    The most disturbing piece of all of this is that for 
workers who lose their job because of an E-Verify error, there 
is no formal process in place for them to get their jobs back. 
And that is a problem for thousands of workers who experience 
these errors. As you can imagine, these problems are only going 
to grow exponentially if we mandate the program.
    Given these concerns, NILC has recommendations about how to 
move forward. First, Congress needs to pass immigration reform 
legislation that protects employee rights and has a road to 
citizenship for the millions of unauthorized workers in our 
communities. Protecting workers is the best way to put 
unscrupulous employers out of business and raise standards at 
the workplace.
    Second, we have got to make sure that E-Verify is not 
misused. Employers should not be able to use E-Verify as a way 
to avoid their obligations. If they participate in the program, 
they should have to follow the program rules, and violations of 
those rules should come with penalties. There are currently no 
meaningful penalties for employers who do not follow the rules.
    Third, make sure that the thousands of citizens and legally 
authorized immigrants who experience errors have a way to 
correct errors and keep their jobs. Government errors should 
not stand between citizens and their jobs.
    Last, if mandatory E-Verify is part of an immigration 
reform proposal, you need to phase it in. Like Mr. Johnson was 
referring to, you need to phase it in gradually with benchmarks 
for performance. After each phase-in, we need to evaluate what 
is happening during the phase-in, the number of American 
workers losing their jobs, the number of employers misusing the 
program, and the program's accuracy rate before moving forward.
    Thank you.
    [The prepared statement of Ms. Tulli follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________

    Mr. Gowdy. Thank you, ma'am. I thank all of our witnesses.
    At this point I would recognize the Chairman of the full 
Committee, the gentleman from Virginia, Mr. Goodlatte?
    Mr. Goodlatte. Thank you, Mr. Chairman, and I want to thank 
all the witnesses for their testimony.
    Ms. Correa, I wanted to start with you. I appreciated the 
demonstration of how the program works well in most instances, 
and I wanted to ask you to step back in time a couple of years. 
Your predecessor testified in this Subcommittee on the same 
issue 2 years ago, and her written testimony indicated that the 
USCIS was exploring ways to lock identities for Social Security 
numbers.
    Your testimony today says essentially the same thing, that 
you are developing that capability. And so I am wondering what 
progress you have made on the SSN lock ability since 2011, and 
when will you expect to see that capability implemented?
    Ms. Correa. Thank you for your question, Chairman. Excuse 
me.
    We have been working on the features to lock the Social 
Security. We are working with the Social Security 
Administration and, of course, the Department of Homeland 
Security Office of Civil Rights and Civil Liberties, as well as 
the privacy officers, to make sure that we develop a locking 
capability in the system that protects the rights of the 
employees, ensures that the Social Security number is properly 
locked in the system, and that works.
    We expect the enhancement to be completed later this year, 
and we would be able to come back and brief you a little bit 
more on exactly how that would work. We are still exploring how 
to do that.
    Mr. Goodlatte. Thank you. Mr. Gamvroulas, you mentioned in 
your testimony that you were skeptical of Utah's E-Verify 
requirement when it was first enacted in 2012. What concerns 
did you have prior to actually using E-Verify, and after you 
began using it, did those concerns become a reality or have 
your concerns been allayed?
    Mr. Gamvroulas. Thank you for the question, Mr. Chair.
    Well, we were concerned about the accuracy and the 
timeliness because we had not been using it previously. Once we 
were able to train our human resources people, we found it to 
be, as you saw in the demonstration, fairly easy to use, 
although it did take some time initially to train our human 
resources people.
    We were concerned, candidly, more about the impact on Utah 
businesses because we were concerned. One of the reasons we 
were skeptical about it was that Utah would be one of only a 
few States that would have enacted a mandatory E-Verify system. 
We were concerned about what that would do employers and 
employees and to the business culture and climate in Utah.
    We have found that that has not happened. For the most 
part, those that use the system that we are aware of have also 
had similar experiences as we have that it is an efficient and 
effective system.
    Mr. Goodlatte. Do you and your HR staff prefer using the I-
9 form or E-Verify?
    Mr. Gamvroulas. We prefer to use the E-Verify. And the 
reason is that it gives, as I mentioned in my testimony, the 
idea of safe harbor. And that is not just for the company, but 
for the individual. If you are the human resources person for a 
company and you are checking off the boxes that the information 
you have been given, that you have verified that those 
documents are real. The I-9 process, you are simply taking the 
documents, stapling them to an application. They go in a file, 
and you might be audited, you might not be audited.
    In the case of the E-Verify, we can print out the 
confirmation letter. We can put it in the file with the 
information. And if we are ever audited or if we are ever 
investigated, we can demonstrate that we have gone through the 
process and verified the information. And so our human 
resources people have told me unequivocally that they prefer 
the E-Verify system.
    Mr. Goodlatte. Let me give Mr. Johnson an opportunity to 
tell us what he is hearing from his members who currently use 
E-Verify as to whether or not the system is easy to use or too 
burdensome and too costly.
    Mr. Johnson. No, they have found it quite easy to use. 
Obviously any time you got a new technology, there is a little 
ramp-up costs at the beginning, but once you get used to it, it 
is working very well.
    Ironically, Congressman, one comment I have gotten is 
sometimes a concern that it does not catch everyone who is 
undocumented, and then sometimes when the government shows up 
for a raid, that results in, even though the employer has not 
knowingly hired anyone who is undocumented, it results in 
rating that a destabilization of the workforce.
    Mr. Goodlatte. So if they have acted in good faith, we need 
to find a better way to handle that. If there is evidence that 
they have not--let me give Ms. Tulli an opportunity to respond 
and ask you a particular question.
    You make a valid point in your written testimony when you 
note that even in states that have E-Verify mandates for all 
employers, not every employer has signed up for the program. So 
what kind of enforcement mechanism do you support in order to 
help ensure that employers sign up for the program?
    Ms. Tulli. Thank you for the question. Exactly to your 
point, Mr. Goodlatte, what we note in my written testimony is 
that there is widespread employer non-compliance. In Alabama, 8 
out of 10 employers are not using the program. Arizona, 5 years 
after enactment, 1 out of 3 are not.
    We think that the best enforcement measure is actually a 
broad and robust legalization plan. That plan should include 
comprehensive immigration reform with employee protections and 
a road to citizenship for the unauthorized workers who are 
currently in our country.
    Mr. Goodlatte. Okay. But to get back to this piece of that 
entire process, do you have specific suggestions that would 
encourage employers to use it more than they do, other than 
mandating it, which we certainly are obviously considering 
because I think any type of immigration reform that you just 
outlined would have to include a piece that assured us that we 
were not going to have a repeat of the 1986 experience where we 
did not have enforcement, and employer sanctions were not 
pursued aggressively. And quite frankly, employers have had 
legitimate complaints about forged documents.
    E-Verify is at least a partial answer to that, and so we 
think it is a partial answer to the big puzzle of where you 
would like to get in terms of some kind of legalization. This 
hearing today is not about all of those aspects of the matter, 
but we would welcome any input you want to give us later on 
about ways you can make this system work better.
    Thank you, Mr. Chairman.
    Mr. Gowdy. Thank the gentleman from Virginia.
    The Chair would now recognize the gentlelady from 
California, the Ranking Member, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. Before asking my 
question, I would like to ask unanimous consent to place 
statements in the record from the Service Employees 
International Union, the American Civil Liberties Union, the 
Coalition for Humane Immigration, Immigrant Rights of Los 
Angeles, the Hispanic Federation, and a letter from a broad 
coalition consisting of organized labor, faith, civil rights, 
and immigrant rights organizations.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   __________

    Ms. Lofgren. Thank you. As I mentioned in my few statements 
at the beginning of the hearing, I think it is obvious that any 
E-Verify system that it is going to be mandated for all 
employers cannot precede reform of the immigration system, and 
I think for obvious reasons.
    I mean, the most glaring example is in the ag sector, as 
has been referenced. We know that American agriculture is 
heavily dependent on undocumented migrant workers, and we could 
do E-Verify and prove that is true, but we already know it is 
true. And the net result would just be damage to the economy, 
and to the farmers, and to the workers. So I just think any E-
Verify system, if we are going to consider it, would have to be 
concurrent with reform of the system.
    But even with that, I have not supported this program in 
the past, but I am trying to keep an open mind that if we were 
to reform the immigration system and this were part of it, how 
would we deal with the issues that we have looked at over the 
years? And, you know, there are lies, darn lies, and 
statistics.
    Bloomberg did a study, and I think you referenced it, Mr. 
Johnson, although you did not mention Bloomberg, estimating a 
very high cost for small businesses to implement that. I do not 
know if the figure of $2.6 billion for small businesses is 
correct or not. But we do understand that in a December 2010 
survey of employers who currently do not use E-Verify, 25 
percent of the small employers said they were not enrolled 
because they do not have a computer. I mean, they are not 
online. So this is going to be problematic for them. And the 
last thing we want to do in a tough economy is put more costs, 
especially on the small business sector.
    So I am asking--I do not know, Ms. Correa or Ms. Tulli or 
any of you--whether you have ideas on how we might accommodate 
those small businesses that are not in a position to utilize 
the system that you have--I could not really see it because of 
the lights. But, you know, it is not accessible to them in the 
same way it is to people who are online.
    Further, question about, and it has been referenced by Ms. 
Tulli. We have had situations where people who are authorized 
to work were dinged, and some of the statistics--and we are 
making improvements, I mean, which is great. But if you scale 
it up to the entire workforce, it is hundreds of thousands of 
people potentially if you just extrapolate out the error rate, 
who would be American citizens who would be told, you know, you 
are not legal.
    And I was just telling the Chairman when I chaired the 
Subcommittee, I had a lawyer who worked for me, Traci Hong, who 
was an immigration lawyer, and I was Chair of the Immigration 
Subcommittee, and she was an American citizen. And when she 
went down to the House office employment center, she got dinged 
as not authorized to work, and she was an American citizen. I 
mean, it took her a long time, even though she was a really 
good immigration lawyer and I was Chair of the Subcommittee, to 
actually straighten it out. So I know firsthand that it can be 
a real pain for people.
    And so I am looking for how do we put something in place to 
prevent trauma to people who are legally here, even if it is 
not--I am not going to say it is every case. But if it is 
150,000 Americans, that is a big deal, and we need to think 
through how to protect those people.
    So those are 2 questions among many others, but I only have 
a short period of time. Ms. Correa, or Ms. Tulli, or any of 
you, can you address those two main issues?
    Ms. Correa. If I may, Chair--excuse me, Congresswoman 
Lofgren--I apologize. First of all, I will talk about the 
accessibility by the small companies, the companies that do not 
always have web access. We certainly recognize that issue. We 
understand it. And so some of the things that we have been 
doing recently here, we have upgraded all of our web browsers 
so that companies and employees can actually access E-Verify 
and Self-Check, which is a service of E-Verify, for the 
employees. They can actually access it using their smart 
phones.
    We are also working on developing an actual downloadable 
application for smart phones because what we are finding is 
that many in that community out there do have that capability, 
and we recognize that there are a lot of the smaller----
    Ms. Lofgren. That would be a big help.
    Ms. Correa. Yeah. There are smaller companies out there 
that actually hire onsite. They hire temporary workers. So we 
want to make it as accessible as possible.
    We also continue our outreach efforts, going out and 
talking to these communities and gaining a better understanding 
of their needs, their concerns, so that we can build that into 
the enhancements that we are working on for the system.
    Last, but not least, Self-Check. I think it is important to 
recognize that Self-Check is out there as a tool so that 
individuals can go in and validate--in other words, go in, 
enter their data. They literally are going into E-Verify, and 
it gives them information in advance as to whether or not they 
might encounter a mismatch or tentative non-confirmation when 
their employer runs it. And that gives them the ability to 
address that potential mismatch before they actually seek 
employment.
    So those are 3 of the things: the outreach, of course, the 
accessibility by smart phones, and then also the Self-Check 
service. But certainly we continue talking to the community out 
there. We continue our outreach efforts because we certainly 
want to understand and address the needs of all the businesses 
out there.
    I also would like to point out that in looking at our 
statistics in E-Verify, 81 percent of the companies in the 
system today are actually companies with 100 or less employees. 
So the small business community is actively registered in the 
system, and we continue to monitor the progress to make sure 
that they are not encountering any problems.
    Ms. Lofgren. Thank you.
    Ms. Tulli. If I could have an opportunity to respond as 
well?
    Mr. Gowdy. Certainly. If you would, to the extent you can, 
make it as----
    Ms. Tulli. Brief.
    Mr. Gowdy. Concise. Okay, thank you.
    Ms. Tulli. Yeah, gotcha. So, Representative Lofgren, to 
your question about what can be done in the context of a 
legalization to make the program better, I outlined this in 
more depth in my testimony.
    First, we need to get that error rate as low as possible. 
When American jobs are on the line, we need to make sure the 
system is as accurate as possible.
    Second, we need to create a formal process for folks to 
contest errors, particularly those final non-confirmations, an 
easy way to do that so a government error does not stand 
between you and your job.
    Third, we need to create penalties for employers who misuse 
the program. It is a real problem. The employer has to tell you 
if there is an error, and if the employer does not tell you, 
then you have on way to contest it or even know about it.
    And lastly, like Mr. Johnson mentioned, I think we need 
gradual phase-in where after each phase-in, we check 
benchmarks, see how many workers have lost their job, and check 
the accuracy rates.
    Thank you.
    Ms. Lofgren. Thanks, Mr. Chairman.
    Mr. Gowdy. Yes, ma'am. Thank you both.
    Before I recognize the gentleman from Texas, I just want to 
quickly ask unanimous consent to enter into the record a letter 
from the Associated Builders and Contractors, the Associated 
General Contractors, the Leading Builders of America, the Mason 
Contractors Association of America, the National Roofing 
Contractors Association, the National Electrical Contractors 
Association, supporting a nationwide mandatory electronic 
employment verification system containing certain provisions, 
such as a Federal preemption clause and certain debarment 
provisions.
    Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________

    Mr. Gowdy. I would now recognize the immediate past 
Chairman of the full Judiciary Committee, the gentleman from 
Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I would like to make a 
brief statement, make a couple of points, and then ask a few 
questions.
    Twenty-three million Americans are unemployed or under 
employed. Meanwhile, 7 million people are working in the United 
States illegally. These jobs should go to legal workers.
    We could open up millions of jobs for unemployed Americans 
by requiring all employers to use E-Verify. E-Verify 
immediately confirms 99.7 percent of work eligible employees. I 
do not know of any government agency that has that kind of 
efficiency, and quite frankly, that is probably as close to 
perfection as we are going to get on this human earth.
    Over 400,000 employers across the United States voluntary 
use E-Verify to check the employment eligibility of their 
employees, and 1,700 new businesses voluntarily sign up every 
week.
    In 2008, the House passed a stand-alone 5-year extension of 
E-Verify by a vote of 407 to 2. And in 2009, the Senate passed 
a permanent E-Verify extension by voice vote. So it has 
overwhelming congressional support.
    And the public also supports E-Verify. February 2012, Pulse 
Opinion Research poll found that 78 percent of likely voters 
favor mandating that all employers electronically verify the 
immigration status of their workers. That included 81 percent 
of the Democrats, 81 percent of Black Americans, and 76 percent 
of other minorities, primarily Hispanics.
    The Westat study has been mentioned a couple of times. I do 
not want to spend much time on it because it is old and frankly 
out of date, and I think at this point it had been discredited. 
But its estimate when it came to the error rate or the cost was 
based entirely on speculation. And the study actually says, 
``It is important to recognize that without direct evidence of 
the true employment authorization status of the workers with 
cases submitted to E-Verify, any estimate of the level of 
identity theft''--that was their concern about the error rate--
would be very imprecise. And, in fact, the Legal Workforce Act 
that I introduced last year contains a number of provisions 
aimed at preventing the use of stolen identities in E-Verify. 
So we have addressed that problem in a number of ways.
    Also in regard to the cost, I wanted to point out that 
another study reveals that three-quarters of the employers 
stated that the cost of using E-Verify was zero. And I think, 
Ms. Correa, you mentioned a while ago that we can now access E-
Verify on smart phones. I mean, this is something that has 
become a lot easier to process.
    Well, let me address a couple--maybe they are more comments 
than questions. And I actually hand out a lot of thank yous 
here. Ms. Correa, I would like to, first of all, say I do not 
think I have ever enjoyed an Administration official's 
testimony more than I enjoyed yours today. I want to thank the 
Administration personally for being a strong advocate for E-
Verify and for looking for ways to both expand it and improve 
it.
    And actually your 99.7 percent figure of approving work-
eligible employees is actually an increase from a few months 
ago when it was 99.5 percent. So it is even better as we go 
along.
    Mr. Johnson, I wanted to thank you for the Chamber's 
reevaluation of E-Verify. And may I ask you to comment briefly 
on the cost and error rate that some people say are 
disadvantages of E-Verify? You mentioned it briefly in your 
oral statement. You went into more detail in your written 
statement. I wonder if you would re-emphasize that.
    Mr. Johnson. Well, the $2.7 billion cost study, yeah, 
obviously that is an alarming figure. It is a still a billion, 
not an ``M.'' And we had our economist look at it, and I think 
there are a couple of points.
    One is that it was based on old data, and the reality of it 
is once people get accustomed to new technology, the cost of 
compliance goes down. Secondly, more technically, it relied on 
the so-called JOLTS study to estimate how many new hires there 
are going to be in the economy, and, therefore, how many people 
get run through E-Verify. But the JOLTS study, which DLS does, 
includes also people who transfer within companies and are not 
necessarily new hires. And it includes people who are not going 
through E-Verify. I think the big part of it, though, is that 
there is an initial cost, and then after the cost diminishes 
radically.
    Mr. Smith. Right.
    Mr. Johnson. Now, look, the fact is that small business, 
the unit cost for an employee, and I do not care if you are 
talking about this law or a labor law, unit cost per employee 
typically under regulations is more of a small business. There 
is just less way to spread it around, that is just the reality. 
But it is not particularized of this program. That is true 
generally.
    Mr. Smith. Okay, thank you, Mr. Johnson And, Mr. 
Gamvroulas, I just wanted to thank you for your favorable 
comments about the Legal Workforce Act from last year. And also 
I think in your written testimony, you may not have mentioned 
it in your oral testimony, and I do not have time for a 
question. Let me just make a statement.
    I think you checked 320 employees. You got 2 red flags who 
were not confirmed, and both of them decided not to contest it. 
So it sounded to me like you were at about 100 percent 
effectiveness for the E-Verify program. And thank you for being 
a witness than can talk to us about the practical impact and 
that it works so well. So thank you.
    Thank you, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from Texas.
    The Chair would now recognize the gentleman from Puerto 
Rico, former Attorney General, Mr. Pierluisi.
    Mr. Pierluisi. Thank you, Mr. Chairman. And I thank the 
witnesses.
    The first thing that I would like to comment is that I 
believe that all of you support the concept of comprehensive 
immigration reform, and I commend you for that.
    Now, as I see it, an expanded E-Verify system should be 
part of a new immigration system in our country because we all 
realize that having 11 million undocumented immigrants around 
or underground makes no sense. It just shows that the system 
has not been working.
    Having said that, I have a couple of questions for Ms. 
Tulli, but any of you could comment further. The first thing 
is, how can we ensure that any expansion of E-Verify addresses 
the concerns you have raised in your testimony, such as 
database errors and employer compliance?
    Ms. Tulli. There are a couple of key things that need to 
happen. As you stated, Mr. Pierluisi, E-Verify should only be 
considered in the context of a broad immigration reform that 
has a road to citizenship for the unauthorized workers 
currently living and laboring in our communities.
    A couple of quick things. First, get the error rate down as 
much as possible. We want it as close to perfect as possible 
when American jobs are at risk. We want to create penalties for 
misuse because, again, it is the employer who has to tell the 
employee about the tentative non-confirmation. So if the 
employee does not know, they do not how to contest it. They are 
completely powerless.
    We also need to think about the phase-in, and the phase-in 
needs to be gradual to make sure that we are getting it right. 
It is better to do it correctly than it is to do it quickly. 
And so after each phase-in, we need to step back, look and see 
how the performance is happening in the field, and evaluate 
from there.
    And lastly, we need to make sure that there is a process 
for folks who receive those final non-confirmations in error to 
correct those effectively.
    Mr. Pierluisi. I believe you stated that 42 percent of 
workers were not informed by their employer of a tentative non-
confirmation in 2009. Is that right roughly?
    Ms. Tulli. That is correct.
    Mr. Pierluisi. Now, are employers not required to do so? 
Why do they not?
    Ms. Tulli. Under E-Verify's program rules, employers are 
required to tell employees about non-confirmation. The problem 
is that there are no penalties if they do not do that. So we 
need to create penalties so that employers will actually comply 
with the program rules.
    Mr. Pierluisi. And am I right by interpreting something you 
said that it sounds like employers are selectively using E-
Verify. Is that right?
    Ms. Tulli. Based on the same study, 33 percent of employers 
pre-screened workers, and that is particularly problematic 
because, again, if you are a U.S. citizen who has an error in 
the system and an employer pre-screens you, you have no way to 
know that. You will just continue not to get hired, 
particularly in a mandatory system. You will go from job to job 
being pre-screened, not being hired, but not be aware of the 
error.
    Mr. Pierluisi. Ms. Correa--I say ``Correa'' because my 
Spanish gets in the way. But I see that you want to comment. Go 
ahead.
    Ms. Correa. Thank you, and ``Correa'' is the right way to 
say it.
    Mr. Pierluisi. Okay.
    Ms. Correa. Yes, sir. Yes, if I could comment. First of 
all, on misuse of the system, as I indicated in my testimony, 
we do have a robust monitoring and compliance section that is 
monitoring the use of the system. We actually look at tentative 
non-confirmation notices. We look at whether employers are 
printing those out because they are supposed to print them out, 
sit down, and talk to employees. If we see or encounter any 
instances where it does not appear that an employer is properly 
using the system, we do make immediate contact with the 
employer.
    If there is any follow-up instance where we see that the 
behavior has not been corrected, we take further action. We 
conduct site visits. We provide training. And if all of that 
fails, we actually refer cases to the Office of Special Counsel 
at the Department of Justice if we believe there is 
discrimination, or even to ICE if we see any misuse or improper 
use of the system.
    I also would like to comment on the fact that employers are 
told specifically in all the guidelines, the memorandum of 
understanding, and all the materials that they are not to pre-
screen employees. And if we become aware of any such behavior, 
we immediately refer those cases.
    Last, but not least, I did want to comment a little bit on 
the review process. When a TNC comes through and the employer 
sits down with the employee to discuss the TNC, the employee 
can contest the TNC. If they decide to contest, they have 8 
days to contact the Federal Government, provide whatever 
information, because I do want to point out what that generates 
a TNC is a mismatch between the data that was entered into E-
Verify and the data that we are checking against other 
databases. So an employee does have 8 days to come to the 
agency, to DHS or Social Security, depending on what the case 
is, to correct that data. If it takes longer for us to make 
that correction, we hold that case as pending, and we notify 
the employer.
    The other thing I would like to add is that while we do not 
have a formal process for the final non-confirmation review, we 
do review final non-confirmations if an employee contacts us. 
In Fiscal Year 2012, we reviewed a little over 1,400 final non-
confirmations, and an interesting statistic that came out of 
that was that in 83 percent of the final non-confirmations that 
we reviewed, the employee had actually abandoned the TNC. In 
other words, they did not follow up, or contest it, or, if they 
indicated they were going to contest, they did not follow 
through.
    So I do want to point that out and mention that we are 
going to formalize this final notification process, this final 
non-confirmation process, to make it a more formal process so 
that an employee could come to us for a formal review of any 
final non-confirmation. Thank you.
    Mr. Pierluisi. Thank you. My time is up I see.
    Mr. Gowdy. I thank the gentleman from Puerto Rico.
    The Chair would now recognize the gentleman from Iowa, Mr. 
King.
    Mr. King. Thank you, Mr. Chairman. I would start with you, 
Ms. Correa, and ask you, if one were going to try to improve 
upon this 99.7 percent number, and I support everything I heard 
Mr. Smith say and complimentary, especially to you for working 
so intensively on improving E-Verify. But if the remaining 
three-tenths of 1 percent, most of that, I think you I 
understood you to say, has to do with married names that did 
not get changed. And is that how you get it fixed now? If we 
are going to get it better, if it could be gotten better, is 
that what is required is to use E-Verify?
    Ms. Correa. Well, let me clarify. The name change was an 
example of a potential mismatch. But the answer is to get those 
errors down, what we have got to make sure is the tentative 
non-confirmation is properly being returned for a mismatch, and 
that the employee reaches out to us or to the Social Security, 
whichever agency it is, to make sure that that data gets fixed 
in the system. But we certainly continue to try to find ways to 
get that error rate down to make sure that we are getting to 
the employees and making them aware of what they can do to fix 
that information.
    Mr. King. This is so much better than it was predicted to 
be just a few years ago. Thank you.
    And then, Mr. Gamvroulas, in the business that you are in, 
I heard you say that you believe that you should be able to use 
E-Verify, I would use the language, with a bona fide job offer 
rather than having to hire someone and find out that they are 
unlawfully working in the United States.
    Mr. Gamvroulas. Thank you. That is an important 
distinction. And in my comments, the point that I was trying to 
make was that, and this runs a little bit counter to the other 
testimony, is that we cannot run E-Verify until we have 
actually hired the person, the person who has actually been 
hired has accepted the employment, and they are on the payroll. 
And that is when we are able to input them into the E-Verify 
system.
    And so that is problematic because they are now in the 
system.
    Mr. King. And you have actually hired someone who cannot 
legally work in the United States, and under a different 
interpretation, might have actually been in violation of law.
    Mr. Gamvroulas. It might be tentative non-confirmation, and 
it might be something that they can go to the Social Security 
Administration and get cleared up, and that is great. But in 
the meantime, they are on the payroll, and until that is 
cleared, they are an employee and we are investing time----
    Mr. King. So you would like to be able to offer here is a 
conditional job offer. I will have to run you through E-Verify. 
If you clear that, you can go to work for our company.
    Mr. Gamvroulas. Yes.
    Mr. King. That is what I wanted to clarify, and I think 
that is an important piece. I think Mr. Johnson agrees with 
that piece. But I want to come back to you. I will come back to 
you, Mr. Johnson, in a moment.
    On current employees, and you have contractors that would 
like to use E-Verify to make sure that they could clean up 
their workforce on their current or legacy employees?
    Mr. Gamvroulas. The subcontractor base that we use, the 
vast majority of them are small businesses. And in the State of 
Utah, currently the vast majority of them are not required to 
use E-Verify because they have fewer than 15 employees.
    Mr. King. But would you support the elective for an 
employee to do so at their discretion on current employees?
    Mr. Gamvroulas. Johnson. We would not support that. We 
would take the same position as the Chamber that legacy 
employees should not be post-screened.
    Mr. King. And I have read the position of the Chamber on 
this, and I am curious from you, if you can tell me the concern 
that has been voiced is that an employer might step into some 
type of liability if they utilize the E-Verify on current 
employees. Why would one object to allowing an employer to use 
their discretion on using E-Verify?
    Mr. Gamvroulas. Mr. Johnson. I can only speak for my 
company, and why we would be concerned about that. But we would 
be concerned and we would not that because we believe that it 
would open us up to complaints of discrimination.
    Mr. King. But would you object to other companies utilizing 
it at their discretion?
    Mr. Gamvroulas. Our company, we would maintain our position 
and concur with the Chamber to----
    Mr. King. And if we wrote into a bill a safe harbor for 
those who legitimately use E-Verify for current employees, that 
would also resolve the concern, would it not?
    Mr. Gamvroulas. I am sorry. I do not think I understood 
your question.
    Mr. King. If we wrote into the bill a safe harbor for 
employers to utilize E-Verify on current employees----
    Mr. Gamvroulas. On current employees.
    Mr. King. Maybe I misstated it, but would that not resolve 
your concern as well?
    Mr. Gamvroulas. I still think I would be concerned as an 
employer that that would open us to----
    Mr. King. But as an employer, do you not have an 
independent attitude about making your own decisions? See, I am 
thinking that I as an employer for all the years that I have 
met payroll, and there are great many of them, I wanted to make 
my own decisions, and I did not want government to tell me that 
I could not. And I did not like it when government said to me 
that I could not use E-Verify unless I had actually put the 
person on my payroll.
    And so this is the same principle in my mind. If an 
employer wants to clean up his workforce and we have got a tool 
to do it that is 99.7 percent accurate, if some people are 
concerned about that liability, why would we not want them to 
make that decision themselves because they are responsible 
people in this country, too?
    Mr. Gamvroulas. Mr. King, I would be concerned about E-
Verify being used as a tool to do that. If somebody wants to 
clean up their workforce, there are many other ways that they 
can do that.
    Mr. King. Thank you, Mr. Gamvroulos, and I really regret 
the clock has run down.
    I appreciate it, Mr. Chairman. I yield back.
    Mr. Gowdy. I thank the gentleman from Iowa.
    The Chair would now recognize the gentleman from Illinois, 
Mr. Gutierrez.
    Mr. Gutierrez. Thank you so much, Chairman. Thank you again 
for calling this hearing. I would like to ask Ms. Tulli, why is 
the error rate for a naturalized U.S. citizen--what is it for 
naturalized U.S. citizens in the E-Verify system? What is the 
error rate?
    Ms. Tulli. So the error rates, there are a lot of facts and 
figures, and you can see more in my testimony. What we know is 
that naturalized U.S. citizens are 30 times more likely to 
experience an error, and we estimate based on the statistical 
model included in Westat that if this were to go to scale, 1.2 
million Americans and legally authorized workers are going to 
experience an error.
    Mr. Gutierrez. And why do you think that is so? That is 
pretty high.
    Ms. Tulli. That is a lot of workers.
    Mr. Gutierrez. That is a lot of people.
    Ms. Tulli. That is why we are here today suggesting that 
the error needs to be as close to perfect as possible. When a 
government error can stand between an American citizen and 
their ability to work, that is a problem. So as we consider 
taking this program mandatory as part of immigration reform, we 
need to make sure that we have protections in place for exactly 
this sort of situation.
    I elaborated earlier on the idea of creating a formal 
process for these final non-confirmations. Workers' jobs should 
not be on the line, and, again, we are talking about citizens 
and legally authorized immigrants. Those jobs should not be on 
the line because there is an error in a government database.
    Mr. Gutierrez. So you extrapolate it is 30 times higher for 
naturalized citizens. Interesting.
    I was shocked by the example in your written testimony of a 
veteran, a former captain in the United States Navy with 34 
years of service who was flagged by E-Verify as not eligible. 
It took an attorney 2 months to resolve the problem. Why would 
it take 2 months to resolve it for a 34-year veteran of the 
Navy?
    Ms. Tulli. Exactly. This is precisely the problem. When 
people experience errors, U.S. citizens experience errors, 
particularly this final non-confirmation, it can be incredibly 
difficult to correct those errors. When a worker receives a 
tentative non-confirmation, they have 8 Federal working days to 
correct that tentative non-confirmation, but they have to take 
time off of work, and they have to go to a Social Security 
office.
    So if you live in a large State where there is one Social 
Security office, you might be driving 100 miles to get there. 
Then once you are there, you are going to have to stand in 
line. You are going to have to pay for gas to get there. You 
may have to pay for babysitting.
    With the final non-confirmation there is no formal process 
in place to contest these errors. And again, when we are 
thinking about taking this program to scale, based on Westat's 
statistical model, we estimate that 770,000 people could be in 
a similar position to the example you referenced, the U.S. Navy 
captain. And that is a problem as we think about making this 
program mandatory within immigration reform.
    Mr. Gutierrez. Do you support E-Verify as part of 
comprehensive immigration reform or as independent?
    Ms. Tulli. We think that the first step is immigration 
reform to bring people out of the shadows, and to make them 
part of our democracy.
    Mr. Gutierrez. Would you see E-Verify as an essential part 
of comprehensive immigration reform?
    Ms. Tulli. If E-Verify is part of the package. I mean, 
first you have to see what the legalization program looks like 
and how many workers are actually going to qualify to be on 
that road to citizenship. If it is part of the package we have 
outlined, specific changes that need to be made to the program.
    Mr. Gutierrez. But you support E-Verify as part of 
comprehensive immigration reform.
    Ms. Tulli. As part of comprehensive immigration reform, we 
have to know what the legalization package looks like. So I am 
happy to talk to your office about what the thinking is around 
the legalization piece, because for us, if you legalize a small 
portion of the workforce, that does not get it done. We need an 
entirely legal workforce, or else, as we have heard earlier 
today, it is a problem.
    Mr. Gutierrez. Oh, I get it. So you have read some 
excerpts, and there might just be a small group of people.
    Ms. Tulli. I am not making any assumptions.
    Mr. Gutierrez. Okay. That is good not to do that. So let me 
ask, Ms. Correa, so why is the error rate so high? What do you 
think?
    Ms. Correa. I am sorry?
    Mr. Gutierrez. Why is the error rate so high, 30 percent? 
Why do you think it is so high? For naturalized citizens.
    Ms. Correa. So let me talk a little bit about error rates. 
I apologize because it is very confusing. There are numbers 
flying around.
    So when we talk about the 99.7 percent accuracy rate, that 
is the accuracy rate where the system is properly returning a 
response back that an authorized worker is authorized to work. 
In other words, that the system recognizes when we check out 
the databases, based on the Form I-9 data, that this individual 
is properly authorized to work. That is what that accuracy rate 
represents.
    The second accuracy rate that I talk about in my testimony 
is the 94 percent accuracy rate for unauthorized workers. That 
rate means that the system accurately returned a TNC that 
ultimately became an FNC, a final non-confirmation, for 
individuals that were not authorized to work. So an 
unauthorized worker was properly identified as not being 
authorized to work.
    On the 30 percent figure----
    Mr. Gutierrez. I am out of time.
    Ms. Correa. I am sorry.
    Mr. Gutierrez. It is just we did----
    Mr. Gowdy. You are welcome to finish your answer as far as 
I am concerned.
    Mr. Gutierrez. Thank you. Please.
    Ms. Correa. Okay.
    Mr. Gutierrez. Yeah. I just thank you so much since, you 
know----
    Mr. Gowdy. I am not used to people limiting themselves. 
That is what took me off guard. But you are welcome to finish 
your answer.
    Ms. Correa. Thank you, sir. So the 30 percent, there are 
many reasons that could happen. It could have to do with how 
the name was inputted into the system, these appear to be 
issues from before because these are old statistics that we are 
talking about when you talk about the 30 percent, how people 
hyphenated their names, spaces, those kinds of things.
    We have actually, and you may have seen in it in the demo, 
we have actually added features in the system to provide for 
quality assurance to remind employers to double check how they 
entered the names into the system to guide them on how to enter 
dates and those kinds of information.
    So we are working at addressing that kind of issue. We 
believe that a lot of what you saw in that 30 percent figure, 
which I believe came from the Westat study from 2009, were 
based on those kinds of issues, and those are corrections that 
we have made to the system since then.
    I do not have the figure in front of me now, but I 
certainly could check to see if we have an updated number in 
that area.
    Mr. Gutierrez. Thank you. We need you comprehensive 
immigration reform. We cannot do it without E-Verify, and we 
need it to work. Thank you.
    Ms. Correa. Thank you.
    Mr. Gowdy. Thank the gentleman from Illinois.
    And the Chair would now recognize the gentleman from Idaho, 
Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman. And thanks for 
holding this important hearing.
    Mr. Tulli, I am a little bit confused by your testimony. 
You give the example of the U.S. Navy captain, and I understand 
how frustrating that can be. But I was an immigration attorney, 
and I had the experience of helping people who had false hits 
on E-Verify. And it is pretty simple. You just go to the Social 
Security office, you show that you are the person you said you 
were going to do. You show that you have a Social Security 
number. And most of the time the mistakes are because you 
transposed a number or something like that.
    So I know you are using the extreme example, but is it not 
true that the majority is just simple cases that I am referring 
to, the great majority of them?
    Ms. Tulli. For TNCs, Representative Labrador, specifically?
    Mr. Labrador. Uh-huh.
    Ms. Tulli. So you are correct that for TNCs, typically a 
worker has to go to a Social Security office and try and 
correct the error. But that really varies worker to worker.
    And as I mentioned before, how easy it is to get a Social 
Security office, particularly if you are working a low-wage job 
or 2 jobs, and trying to correct that error can be incredibly 
difficult.
    Mr. Labrador. But they are trying to work. I mean, I am 
having a hard time with your testimony because we want to get 
something done here in Congress. We want to get immigration 
reform done. I want to have a bipartisan solution. And all you 
are throwing out is reasons why we should not have E-Verify, 
reasons why we have a problem with E-Verify.
    You are saying that it has to be--you are not even sure 
that E-Verify should be part of a comprehensive immigration 
reform. And I think if advocates for immigration reform keep 
coming here and having problems with the enforcement mechanisms 
that we need to have in order to have a viable immigration 
system, I think you are going to spoil any chance that we have 
right now to have comprehensive immigration reform. And I am 
really concerned about that.
    Ms. Tulli. If I may respond. I am glad to hear that you are 
interested in working toward a solution, a comprehensive 
solution, on immigration reform.
    Mr. Labrador. I have been interested for 15 years, so thank 
you.
    Ms. Tulli. That is great to hear.
    Mr. Labrador. Yeah.
    Ms. Tulli. In terms of the enforcement measures that you 
are referring to outlined, and I know my written testimony is 
long. It is about 12 pages. But we outline the exact tweaks in 
the program that we see are problematic now.
    Mr. Labrador. But somebody just asked you specifically if 
you believed that E-Verify is part of a solution, you know, it 
is a part of the comprehensive needs that we have in Congress 
for us to solve this problem, and you could not answer that 
question.
    Ms. Tulli. Well, as I answered it, we have to know what the 
legalization portion----
    Mr. Labrador. No, the question is, do you think E-Verify is 
part of a comprehensive solution.
    Ms. Tulli. And my answer is, we know that there are 
problems with E-Verify now, and I have outlined what they are.
    Mr. Labrador. Okay. You are not going to answer the 
question.
    Mr. Johnson, do you think E-Verify is a necessary part of a 
comprehensive solution?
    Mr. Johnson. Yeah, we do.
    Mr. Labrador. Okay. Ms. Correa, do you think E-Verify helps 
us in having a comprehensive solution?
    Ms. Correa. Sir, I believe that E-Verify is an effective 
tool for enabling employers to verify the employment 
eligibility of the individuals that they are hiring.
    Mr. Labrador. Okay. Now, Ms. Tulli, when you say we needed 
to create penalties for people who misuse E-Verify, what kind 
of penalties are you talking about?
    Ms. Tulli. We are open to discussing what penalties. Right 
now there is absolutely no meaningful penalty, so we would love 
to work with your office in thinking through what those 
penalties could look like.
    Mr. Labrador. But can you give me an example? What do you 
think would be a meaningful penalty?
    Ms. Tulli. Right now there are no penalties, so any step in 
that direction is a good step. I do not have specific 
suggestions on exactly what those penalties should look like.
    Mr. Labrador. Now, you used the example of pre-screening. 
You said that 30 percent of employers are currently pre-
screening using E-Verify. Where do you get that data from?
    Ms. Tulli. The Westat study, 2009.
    Mr. Labrador. Okay. Now there have been some problems with 
that Westat study, is that not true?
    Ms. Tulli. What problems are you referring to, sir?
    Mr. Labrador. It says that it was done in 2009. That that 
number is based on studies from 2009, and that study has been 
questioned by some groups, is that correct?
    Ms. Tulli. I am not aware of significant questioning of the 
study. It is an independent evaluation of the program.
    Mr. Labrador. And one of the questions that I have is, how 
are people using E-Verify for pre-screening when they did not 
have people's Social Security numbers?
    Ms. Tulli. How are they using it for pre-screening?
    Mr. Labrador. Pre-screening, yes.
    Ms. Tulli. Well, presumably in the job application process, 
employers were asking for the relevant data that would be----
    Mr. Labrador. Is that not a violation of the law?
    Ms. Tulli. It likely is.
    Mr. Labrador. So they are already violating the law. So if 
they are already violating the law, there should be something 
already in place.
    If I require somebody's Social Security number when I am 
employing them, before I employ them in the pre-screening 
process, I have violated the law, is that not correct?
    Ms. Tulli. What violation of the law are you referring to, 
Representative Labrador?
    Mr. Labrador. You cannot ask for a Social Security number 
when you are asking for an application.
    Ms. Tulli. I do not know if you are referring to a labor 
law or exactly which law you are referring to. It is not a 
violation of the Fair Labor Standards Act or any labor law that 
I am familiar with. What we do now is that Westat is an 
independent evaluation of the program functioning, and 33 
percent of employers were running workers through the program 
before they were ever hired.
    Mr. Labrador. Okay. Thank you very much, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from Idaho.
    And I will recognize myself. I am not as good as Raul on 
this kind of law, and I am really bad with numbers. I went the 
liberal arts route. But I am going to try a number.
    Forty-two percent apparently it has been alleged today, 42 
percent of punitive employees who receive a TNC are not 
notified. Have you heard that statistic today?
    Ms. Correa. I heard that statistic today, yes, sir.
    Mr. Gowdy. How would they know that?
    Ms. Correa. Sir, today the way the process works is the 
employer is required to notify the employee and sit down and 
review the----
    Mr. Gowdy. But where would the 42 percent come from? It 
strikes me that that would only come from people self-reporting 
that they did not receive something. And that is not 
historically a really valid way of determining things.
    Ms. Correa. I believe that that 42 percent is possibly 
coming from the Westat study. I am not sure. And that Westat 
study, it is important to point out, it is based on modeling. 
It is based on statistical modeling. So it is not an accurate 
look, or I should not say ``an accurate,'' but it is not 
looking at the data contained in the system.
    What I can share with you is that, first of all, we are not 
seeing that pattern. We are not seeing that kind of number. Our 
monitoring and compliance branch is watching the system. They 
are watching how employers use the system. One of the 
indicators that we have out there is when the employer prints 
the TNC because they are required to print the TNC to discuss 
it with the employee. The other indicator is the referral 
letter that is generated by the system. So I do not believe 
that 42 percent exists today.
    Mr. Gowdy. Me either. That was kind of my point.
    Ms. Correa. In fact, I know that it does not exist today.
    Mr. Gowdy. Historically, people do not always, at least in 
my previous job, historically people do not always self-
identify correctly; hence, Ms. Tulli, we have hearsay rules 
where people cannot say certain things because it is not 
inherently reliable. So let us do away with the 42 percent.
    To the extent it does happen, what tools can we give you to 
make sure it happens less? Whether it is 42 or 14, how can we 
help you make sure it happens less frequently?
    Ms. Correa. Well, thank you for that question, sir.
    I want to clarify something. In our monitoring and 
compliance activities, what we are seeing is that the first 
step in monitoring and compliance, if we see any kind of 
behavior that is inappropriate, we immediately send an e-mail 
to the employer. We contact them. Typically within 90 days, we 
will follow up if we see that behavior again. We are not seeing 
that. We are seeing that the employers are taking corrective 
action.
    But if the employer does not take corrective action, then 
we follow up with things such as site visits, desk audits, et 
cetera, because we certainly want to make sure that people are 
properly using the system.
    I also want to talk, if I may, address the issue of 
penalties because I do not want folks to think that we are not 
monitoring the system and that we are not referring cases. That 
is not true. In Fiscal Year 2012, we referred 24 cases to ICE 
for further investigation and 51 cases to the Office of Special 
Counsel for unfair employment practices. So if we see behavior 
that is inappropriate on the part of any employer, we are 
referring the cases.
    The tools that we use, again, is monitoring the system. We 
have a very robust staff that follows through. We want to make 
sure that we continue to train people, that we provide the 
right tools, and that we inform the employees.
    So one of the things that we are working on is an 
enhancement to the system where the employee, if they provide 
their e-mail address on the I-9 form and the employer inputs it 
in the system, we will e-mail the employee so that they are 
aware of a TNC to minimize the likelihood that an employee 
would not know about a TNC.
    And I also would like to add one more fact that an 
employee, addressing the issue of, you know, getting to Social 
Security offices, et cetera. An employee has 8 days to address 
the issue. But if they need more than 8 days, if they contact 
us, we put the case in a pending status and notify the 
employer, because our goal is to make sure that we address a 
mismatch. And if there is truly a mismatch in the system, we 
want to make sure that that problem is corrected.
    Our goal is to make sure that people are properly 
authorized to work. Thank you, sir.
    Mr. Gowdy. Well, I will just say this kind of in conclusion 
before I ask Mr. Johnson a question. Anyone who wants a job and 
is eligible and qualified to have one, I mean, we all want a 
zero percent error rate. And I know you do, too.
    But we had a hearing this morning in this very same room on 
drones, and they do not have 100 percent get it right rate. And 
I am not minimizing the consequences of your .03 error rate. I 
just think that is pretty doggone good. And like I say, another 
one of your sister agencies does not get it 100 percent right 
when it comes to drones.
    Mr. Johnson, 76 percent of the employers say there is no 
cost to implementing E-Verify. Is that right?
    Mr. Johnson. The 76 percent, that is not my figure. I will 
say that I have a labor relations committee and an immigration 
subcommittee, and I had a special task force on this issue. And 
the feedback from our employers was that, and I am not saying 
it was a mathematical stamp across the entire country, which 
the system works quite well with very little hassle.
    Mr. Gowdy. No, I was talking about startup costs. It struck 
me. I saw a statistic somewhere, 76 percent say zero in terms 
of startup costs.
    Mr. Johnson. Right.
    Mr. Gowdy. Which----
    Mr. Johnson. That is where the Westat study, and as I 
understand, we had our economist look at this, extrapolated 
from the 24 percent of businesses that reported some costs, and 
then made a national calculation, but ignored the fact that 76 
percent of the businesses reported zero costs.
    So obviously when you have some number of businesses 
reporting X costs and other ones reporting zero, Congressman, 
there is something odd going on there in the reporting. I 
cannot really identify what exactly it was in the Westat study. 
All I can tell you is where the rubber meets the road, my 
membership, they see this as a very sustainable burden and part 
of, I think, their deal in trying to move the country forward 
on immigration reform frankly.
    Mr. Gowdy. And to use E-Verify is free.
    Ms. Correa. Yes.
    Mr. Gowdy. So you need a smart phone or a computer and 
Internet access
    Ms. Correa. Access, uh-uh.
    Mr. Gowdy. And the dues I think to join your organization 
are what per year?
    Mr. Johnson. Well, that is a----
    Mr. Gowdy. Is that confidential? Would you be willing to 
give some kind of voucher in exchange for buying a smart phone?
    Mr. Johnson. I can tell you, for small businesses, they get 
a great deal.
    Mr. Gowdy. I am kidding with you. You do not have to answer 
that. But it is free, and it is accessible, the smart phone, 
Internet access.
    Ms. Correa. Yes, sir.
    Mr. Gowdy. I am curious where that $2 billion figure came 
from. But with that, my time has expired.
    On behalf of Chairman Goodlatte and everyone, thank you. We 
apologize again for the delay with votes, but you have been 
very helpful, very informative. We appreciate your collegiality 
both with the Subcommittee and with each other.
    And with that, we are adjourned.
    Ms. Correa. Thank you.
    [Whereupon, at 5:38 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Material submitted by the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                   on Immigration and Border Security

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
